V?

'i-o-XV,
No. 20-

In The
SUPREME COURT OF THE UNITED STATES
July Term, 2020

JAMES L. ROBISON
Petitioner,
v.

CITIBANK, N.A., AS SUCCESSOR
TRUSTEE TO US BANK NATIONAL
ASSOCIATION, AS TRUSTEE UNDER THE
POOLING AND SERVICING AGREEMENT
DATED AS OF JULY 1, 2007 MASTER ADJUSTABLE
RATE MORTGAGE’S TRUST 2007 HF2
MORTGAGE PASS THROUGH CERTIFICATES,

filed
JUL 0 6 2020

Respondent,

On Petition for a Writ of Certiorari from the
Supreme Court of Florida

PETITION FOR A WRIT OF CERTIORARI
James L. Robison, Petitioner, Pro-Se
1058 N. Tamiami Trl. Suite 108-118
Sarasota, Florida 34236
P. (941) 266-6300
E. jlrobison3@ gmail.com

RECEIVED
JUL 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

I:
1

Questions Presented
1. Is the United States Constitution’s 5th Amendment right for a person not to be
deprived of property without due process of law an amendment that Florida State
Courts can arbitrarily enforce procedural process by invalidating valid Florida
Statutes and ignoring Florida Rules of Civil Procedure therefore denying a litigant
access to a fair and meaningful trial?
2. Is the United States Constitution’s 14th Amendment right to “equal protection
under the laws” a protection afforded all litigant whether represented by an
attorney or pro se?
3. When Fraud on the Court is colorably raised by a litigant to the State Courts is it
within that Courts discretion to condone the fraudulent action?
4. Can a State Court at its discretion render valid Florida Statutes invalid when in
doing so cause detrimental harm, bias and deny the litigant due process of law and
the right to be heard?

I

List of Parties in Proceedings

1.
2.

JAMES L. ROBISON

Defendant, Petitioner

CITIBANK N.A., as successor trustee to US Bank National
Association, as trustee under the pooling and service agreement
Dated as of July 1, 2007 Master Adjustable Rate mortgage’s Trust
2007 HF2 Mortgage Pass through Certificates,
Plaintiff, Respondent

3.

ROBERT E. ONEIL United States Attorney
Internal Revenue Service
Plaintiff, Respondent

II

Table of Contents
Questions Presented

I

List of Parties in Proceeding

II

Table of Contents

III

Appendix

IV

Table of Citations

V&VI

Opinions below

1

Jurisdiction

2

Constitutional Provisions Involved

3

Statement of Case

4-7

Reasons for Granting the Writ

8-14

III

Appendix
12th District in and for Sarasota County Florida Order Denying Defendant’s
Motion for Evidentiary Hearing on Original Note.
attachment 1... 03/07/19
Notice of Appeal to 2nd District Court of Appeal, Florida. (R873-876)
attachment 2 ...03/15/19
Note: Record on Appeal from lower Court expires.

03/15/19

2nd DCA of Florida Order canceling Dec.ll, 2019 oral argument
attachment 3.... 10/10/19
2nd DCA of Florida Order per curiam, affirmed.

attachment 4.... 12/20/19

2nd DCA of Florida Order denying Motion for written opinion, rehearing,
rehearing en banc.
attachment 5 ....03/04/20

SC20-495 Supreme Court of Florida Lacks jurisdiction to review.
attachment 6. ...04/08/20
Related Orders to case 2012-CA-4438-NC listed below.
2D18-4959 2nd DCA, Florida Opinion affirmed in part/Dismissed in part 01/22/20
SC18-389 Supreme Court of Florida Jurisdiction declined

11/29/18

2D16-4714 2nd DCA, Florida

02/05/18

Order Rehearing denied

2D16-4714 2nd DCA, Florida Opinion affirmed in part/Denied in part

IV

10/25/17

Table of Citation
Association de Per iudiacados v. Citibank
770 So. 2d 267 (Fla. 3rd DCA 2000)

8

B. Platskv v. CIA. 953 F. 2d. 25. 26 28 (2nd Circuit 1991)... 13
Conley v. Gibson. 355 U.S. 41, 48 (1957)

12

Elliot v. Elliot No. 93-0147

13

Elmore v. McCammon. (1986) 640 F. Supp. 905

14

Haines v. Kerner 404 U.S. 519 (1972)

13

Fla. Power and Light v. Canal Authority
423 So. 2d 421 (Fla. Ann. 5 District 1982)

9

Perry v. Fairbanks Capital Corn.
888 So. 2d 725. 726 (Fla. 5th DCA 2004)

10

Prosressive Exn. Ins, v. McGrath Community Chiropractic;
913 So. 2d 1281 (Fla. 2^ DCA 2005)
9
Your Construction Center Inc, v. Gross.
315 So. 2d 596 (Fla. 2P* DCA 1975)

9

Fladell v. Palm Beach County Canvassing Board
722 So. 2d 1240 (Fla.2000)......................................

9

V

Florida Statutes and Florida Rules of Civil Procedure
s. 57.01

8

s. 71.011(5)

11,12

s. 90.952

10

s. 90.958 (2)(b)(c)

10

s. 92.09

11

s. 673.1041

10

s. 673.3091 (2)

10,11

s. 692.01

9

s. 817.535

12

rule 1.110 (e)

9,11

rule 1.120 (a)
rule 1.130

9

Other Authorities
United States Constitution Amendment 5

8,5,11

United States Constitution Amendment 14

8,11

Florida Constitution Article 1, Section 9

11

VI

Opinions Below

The opinion of the 2nd District Court of Appeal of Florida Per curiam Affirmed
without written opinion , unreported. 2D 19-1029
12/20/19

The 2nd District Court of Appeals Order Denying Appellant Request for Written
Opinion, Hearing or Rehearing en banc. 2D 19-1029
03/04/20

Supreme Court of Florida SC20-495 Dismissed lacks jurisdiction

1

04/07/20

Jurisdiction

The opinion of the 2nd District Court of Appeal, Florida was entered on Dec.20,
2019. per curiam. Affirming lower Court Orders.
The 2nd District Court of Appeals denied a timely filed Motion for Written opinion,
Hearing or Rehearing En banc on Mar. 4th, 2020.

The Supreme Court of Florida denied Petitioners timely filed Notice of Appeal for
review on April, 8th, 2020. Dismissing case for lack of jurisdiction
The jurisdiction of this Court is invoked under 28 United States Code 1257 (a).
Petitioner is timely filing this Petition for Certiorari by U. S. Mail on July 6th, 2020.
See> Superior Court Rules 13.1 & 29.2

2

Constitutional Provisions Involved

United States Constitution Amendment 5 provides ... No person shall
deprived of life, liberty, or property without due process of law.

be

United States Constitution Amendment 14 provides ... All persons born or
naturalized in the United States
nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection under the laws.

Florida Constitution Article 1, section 9 Due process of law — No person shall be
deprived of life, liberty or property without the due process of law.

3

Statement of the Case
Petitioner, (Defendant, Robison) submits to this U.S. Supreme Court, evidence
and material that has been filed on the official case record (2012-CA-4438-NA) ,for
review of Florida 12th District Court Judicial process and the abuse there of.
For this Court to fully understand the legal abuse subjected to petitioner, pro se
it is necessary to begin at the commencement of this case at bar to reveal trial
Courts evasion of Florida Rules of Civil Procedure and lack of enforcement of valid
Florida Statutes as it pertains to procedural process and as it pertains to petitioners
right and ability to properly create a defense against Plaintiffs complaint.
For the record the named litigants have not engaged in an adversarial trial
proceeding to orally argue the evidence, Having said that,
On May 31st, 2012 Respondent (CITIBANK N.A. et.al., Plaintiff, bank,
respondent), filed a Verified Foreclosure Complaint (complaint) (R 27-53) against
Defendant.
CITIBANK N.A. was not the “original” lender of record, was not named on
promissory note (note) or mortgage and did not file with complaint any documents
to authenticate ownership with right to enforce. The subject note at the time of
commencement of complaint had two indorsements in blank.
On Sept. 3rd, 2014 defendant filed with the 12th Judicial Circuit Court in and for
Sarasota County, Florida (Court) Defendant’s Answers and Affirmative Defenses
(R112-122) in response to Plaintiff s Complaint. Admitting to #10, #11 and #15 of
respondents 16 claims and denying the remainder. Defendant also stated Defenses
to the complaint to include l) Lack of Capacity, 2) Failure to state a cause of action
for which relief can be Requested, 3) Lack of Standing, 4) Lack of Subject Matter
Jurisdiction, 5) Unclean Hands, 6) Fraud On the Court as well as stating 6) Failure
of a Condition Precedent. To preserve issue for future litigation.
After 15 months of Defendant’s Discovery Motions to no avail the Court set
Mortgage Foreclosure Trial (Non-Jury) for Dec.17th, 2015 (Dec. trial) (R306-307).
Soon thereafter the Court reschedules the Dec.l7,h trial for Jan. 14th, 2016 (R308310).
On Dec. 17th, 2015 the Court held a foreclosure trial with only Plaintiff in
attendance at proceeding to plead and submit the contents of complaint.

4

Plaintiff counsel submitted as evidence a promissory Note with CITIBANK N.A.
named on the note (note 2) along with other documents which were not filed with
the Complaint at the time of commencement of action.
Trial Court Judge reviewed and inspected evidence and ordered evidence to be
filed in the Official case record evidence file #37369 (R357-413) as well as County
Land records. Defendant was not in attendance and transcripts were not taken by
Court or Plaintiff to record proceedings.
Respondent on Jan. 4th, 2016 filed a Motion to Vacate and Set Aside Final
Judgement of Mortgage Foreclosure and Terminate Pending Foreclosure Sale
(R419-424), in support thereof stating that the Court had held the trial on the
wrong date.
Defendant on Mar. 23rd, 2016 filed in the case record and hand delivered to Trial
Judge a memorandum (R455-459) containing “altered” promissory notes submitted
by Plaintiff as verified evidence of CITIBANK N.A. standing to Foreclose at the Dec.
Trial.
On Mar. 30th, 2016 Trial court entered an Order Granting Defendant Emergency
Motion to Vacate and Set Aside Uniform Final Judgement of Foreclosure. Ruling-'
Court will vacate Judgement for Excusable Neglect (R407-408).
On April 8th, 2016 counsel for CITIBANK filed a Motion to Reestablish Original
Adjustable Rate Note pursuant to Order Granting defendant’s Motion to Vacate
Final Judgement (R464-466).
On April 29, 2016 Trial court (before trial) entered Orders Denying all Defendant
Requested Discovery on Admissions, Interrogatories and Document Production to
include Defendants Request for Interrogatories (R474-475), Objection to Plaintiffs
Response to First Request for Admissions and Motion to Compel (R476-477),
Defendants Motion for Court to Enter Motion to Compel the Plaintiff to Respond to
Production (R492-493) and Defendant Motion to Compel More Substantial
Production of Documents (R494-495) .
On June 17th, 2016 Trial court entered an Order Setting Case for Residential
Mortgage Foreclosure Non-Jury Trial for Sept. 8th- Sept, trial 2016 (R499)
Noting: All Discovery to conclude by Aug., 26th. This was after denying all of
defendants request for discovery on April 29th.

5

Pursuant to CITIBANK’S Motion to Reestablish Note canceled by the Dec., 17th
Final Judgement, Plaintiff failed to schedule hearing on note and trial Court erred
in the statutory requirements and trial court procedure in not holding a hearing or
entering an order to reestablish the canceled note prior to Sept. 8th trial date
On Sept. 2nd, 2016 Defendant filed an Emergency Motion for Continuance of Sept.
8th, trial (R522-523) and in support thereof stated;
1. Defendant is a person with invisible disabilities defined under the ADA 1990,
ADAAA 2008 and 28 C.F.R. PART 35. Legal abuse Syndrome
2. Defendant filed Judicial Notice of ADA Advocacy- Oral Interpreter on
Aug.9th, 2016 and Notice of e-mail designations were filed with the Court.
3. The advocate retained by Defendant was previously scheduled for another
court proceeding and would not be able to attend Sept. 8th trial proceedings with
defendant. This was cause for continuance of trial as was pleaded in motion.
On Sept. 8th, 2016 Trial Court held trial proceeding without Defendant as
adversarial litigant in the proceeding to review evidence, question witness and
plead arguments in the case record.
Plaintiff produced a copy of the previously submitted note from the Dec. 17th Trial
and filed it as an original along with other evidence not in Plaintiffs Verified
Complaint. Trial Court entered Final Judgement of Foreclosure in favor of
CITIBANK N.A., Trial Court Judge after review of material documents Ordered
evidence to be filed with Clerk of Court evidence record #38743 (R535-613).
After entry of Foreclosure Judgement (R524-529), Trial Judge entered an Order
denying defendant’s Motion for Continuance of Trial Sept. 8th trial (R533) . Stating
on the Order • Court had an ADA interpreter available for defendant, but he did not
appear. Defendant was not provided any notice or oral argument or hearing was not
scheduled.
Defendant filed Motion for Disqualification of Judge Charles E. Williams (R614*
683)) on Sept. 16,;h. Judge Williams entered an Order on Sept. 21 Denying Motion
to Disqualify himself (R684).
It was from these Orders that a Notice of Appeal to the Second District Court of
Appeals of Florida emanated (2D16-4714) (R699-710) appeal number one.

6

On Dec. 13th, 2018 defendant attended Hearing in Objection to the Clerk of Court
Filing of Certificate of Title. At the hearing Defendant again informed the, Court
that the Note had been altered and were “not original” and Plaintiff had
perpetrated a Fraud on the Court in fabricating evidence as Note had not been
reinstated after cancellation and that a fair trial should be held with defendant at
legal proceedings. Defendant retained court reporter to transcribe 27 pages of Court
proceedings (R830-858) which were recorded and filed on the case record.
Trial Judge entered Orders denying Objection to Clerk of Court Filing of
Certificate and defendants Motion for Evidentiary Hearing on Original Note filed on
Feb. 12th, 2019. It is from these Orders that a second Notice of Appeal was
submitted to the Second District Court of Appeal State of Florida (2D 19'
1029XR873-876).
- Hearing time was scheduled with the 2nd DCA then canceled by the court.
- Appeal was denied by 2nd DCA without-written opinion, per curiam.
- Motion to 2nd DCA Requesting written opinion, rehearing, and or rehearing en
banc (denied). Rendering an Appeal to Supreme Court fruitless.
• Notice of Appeal to the Supreme Court of Florida was filed for review of 2nd DCA
Order Affirming lower Courts Orders and Denying request for a Written Opinion.
- Supreme Court of Florida dismissed case for; ‘This court lacks jurisdiction to
review an unelaborated decision from a district court of appeals that is issued
without opinion or explanation” (SC-495, 2D19T029).
It is upon Florida’s 12th District Court adverse foreclosure judgement, 2nd ,
DCA Order per curiam. Affirmed, followed by 2nd DCA denial of Request for written
Opinion. That the Florida Supreme Court Boiler plate dismissal of the case, that
Petitioner seek redress and meaningful review of Constitutionally protected right to
Due Process of Law in of which has been deprived the Defendant.

7

Reasons for Granting Writ
This Court has recognized the 5th Amendment to the United States Constitution
in regards to due process ofla w (procedural process) which affords a litigant
1. An unbiased tribunal.
2. Notice of proposed action and grounds asserted for if.
3. The opportunity to present reasons for the proposed action not to take place.
4. That there is substantial evidence supporting the charges.
5. Court must provide some explanation to the litigant for the basis of adverse
findings.
This Court recognizes the 14th Amendment of the United States Constitution
requiring the States to practice equal protection and for the State to govern
impartially.
It is on the basis of these Constitutionally protected rights of procedural process
and equal protection of individuals against the State that this action seeks review
in this United States Supreme Court, the Court ofIdst resort.
The Circuit Court of the Twelfth Judicial Circuit in and for Sarasota County,
Florida (the Court) procedural process’s to include non- compliance of Florida Rules
of Civil Procedure (Fla.R.Civ.P., Court rules) and Florida Statutes (s.) as it pertains
to this case at bar (2012-CA-4438-NC) is part and parcel to petitioners request for
writ in this court. Florida’s judicial process (to include 2nd DCA) as experienced by
petitioner is legally abusive and deprived this pro se litigant of a full and fair trial
tried to valid completion under due process of the law.
Plaintiff, CITIBANK N.A. (the bank) in filing verified Complaint (complaint) did
not meet the basic requirements of filing suit under court rules and statutes.
The Bank is an out of state corporation not register with Florida Dept, of State
therefore requiring a cost bond to be posted pursuant to s. 57.01. cost bond. Bank
failed to post bond and court erred in not requiring it pursuant to s. 57.01.
The complaint failed to plead it capacity under Fla.R.Civ.P. 1.120(a) to the
extent to invoke the Courts jurisdiction. See! Association de Per iudiacados v.
Citibank 770 So. 2d 267 (Fla. 3rdDCA. 2000) Dismissing case for lack of capacity as
distinguished from standing.

8

The complaint failed to meet the basic court rule Fla.R.Civ.P. 1.130 which
requires all necessary notes, contracts and documents necessary to bring action.
The complaint lacked standing on the date it was filed, as the Citibank was not
named on the note or mortgage and a copy of assignment or valid allonge were not
attached to complaint to authenticate standing and authority to bring the action
before the court. See; Your Construction Center Inc. v. Gross 315 So. 2d 596 (Fla.
2nd DCA 1975) as partially stated “ In the State of Florida, prosecution of a legally
authorized foreclosure action is by the owner and holder in due course of the
mortgage and note.
The Plaintiff s complaint failed to meet the verification requirement under
Fla.R.Civ.P. Rule 1.110 because verifier was “not competent” to establish the
allegations as true and correct. The plaintiff was named on note or mortgage and
there was no assignment of mortgage or attached allonge.
Furthermore the verifier was not competent to ascertain that the defendant’s
note was a void instrument under s. 692.01 and s.673 (UCC3) as it is endorsed by
an unauthorized party. Without a valid Note the Mortgage is a nullity and therefore
no capacity or standing to bring action.
Whereby, failure of the named plaintiff to verify allegation in the complaint
divested the Court of the jurisdiction over the subject matter. See; Progressive Exp.
Ins, v. McGrath Community Chiropractic. 913 So. 1281. (Fla.2ndDCA 2005)
the plaintiffs lack of standing at the start of the case is not a defect that can be
cured by the acquisition of standing after the case has been filed.
The fatal defect of plaintiff is the attachments to the complaint are inconsistent
with the pleading and fail to support Citibank’s cause of action. It is well settled
case law that when attachment are inconsistent with the pleading the content of the
attachments prevail over the pleading. See: Fladell v. Palm Beach County
Canvassing Board 722 So.2d 1240 (Fla.2000).
Further Plaintiffs pleading failed to establish subject matter jurisdiction over
the RES of the complaint to provide the Trial court with jurisdiction over the
complaint, under the controlling legal authority of Fla. Power and Light v. Canal
Authority 423 So. 2d 421 (Fla. App.5 Dist. 1982) for a courts action to be valid it
must have certain jurisdiction, such subject matter jurisdiction must be invoked
and perfected which is done by a party filing proper pleadings. Citibank failed the
burden to meet basic court filing requirements consistent with well-established
Florida foreclosure case law.
9

It is for these reasons that Plaintiff altered the note as to the indorsement and
produced invalid documents to submit to the Court as evidence at the Dec 17th trial.
Trial Judge pursuant to Florida Statute 90.958 (2) (b) (c) as trier of fact shall
determine whether: (b) another writing, recording or photograph produced at trial is
an original, (c) other evidence of the contents correctly reflects the contents.
Florida evidence code s. 90.952 requirement of originals. - which require the
original writing is required in ordered to prove the contents of the writing. Trial
Judge as trier of fact erred in the admission of defective evidence into the case file,
and erred in proceeding with foreclosure trial on a highly contested case without
adversary present, denying the defendant benefit of the basic right to be heard as
protected by the United States Constitution Amendment 5 due process of law.
As stated previously court had proceeded to trial on the wrong day. In doing so
the Final Judgement entered in favor of the bank canceled the note. See- Perry v.
Fairbanks Capital Cory.. 888 So. 2d 725.726 (Fla. 5th DCA 2004) the judgement
cancels the note. The clerk cannot return these instruments to the parties. Also a
promissory note is clearly a negotiable instrument as defined in s. 673.1041 and
either an original must be produced or a lost document must be reestablished under
section 673.3091 Florida Statutes (2002). Since the canceled note is removed from
circulation, it is a requirement to reestablished note to introduce at future trial
proceeding, s. 673.3091 (2) a person seeking enforcement of an instrument under
section 1- must prove the terms of the instrument and the person’s right to
enforce
the court may not enter a judgement in favor of person seeking
enforcement unless it find that the person required to pay the instrument is
adequately protected against loss that might occur by reason of a claim by another
person to enforce the instrument.
Plaintiff proceeded to Sept. 8th trial with a copy of the Dec. 17th note with
fraudulent indorsement with the knowledge that if had not been reestablished and
successfully submits to the trial Court, for the second time, as an original.
This constitutes Fraud on the court, as the submission of fraudulent documents
by an officer of the court (attorney) in an attempt to subvert the integrity of the
judicial process. The trial court judge was aware, or should have been, that the note
not only had a defective indorsement but had not been reestablished pursuant to s.
673.3091(2). Trial Judge (s.90.958) has been tasked the procedural responsibility to
reestablish note (if necessary) and verify and admit evidence (s.90.952) to include
verifying documents to be original.

10

Florida statute 71.011 reestablishment of papers, record, and files (5)
Complaint. - A person desiring to establish any paper, record, or file, except when
otherwise provided, shall file a complaint in chancery setting forth that the paper,
record, or file has been lost or destroyed and not in the custody or control of
petitioner, the time and manner of loss
that the persons named in the
complaint are the only persons known to plaintiff who are interested for or against
reestablishment. Trial Judge and plaintiff made no effort to reestablish canceled
note.
Also see: Florida statute 92.09 - Effect of reversal, etc., of a judgement or
successful attack on deed. - No copy of a judgement or decree shall be admitted in
evidence as aforesaid when it shall be made to appear that such decree has been
reversed, annulled, vacated, or set aside, or that the same in collateral proceeding
has been successfully attacked.
Yet Trial Judge entered into official record copy of a note with fraudulent
indorsement that hadn’t been legally reestablished, by the court, pursuant to s.
673.391(2). The court lacked subject matter jurisdiction to proceed to a second trial,
by virtue of canceling the note rendering it of no legal effect. Defendant is giving the
court the benefit plaintiff ever had jurisdiction of the subject matter as it was never
invoked by Citibank as they lacked standing, capacity, etc. from the commencement
of action. It’s the trial Court’s procedural conduct or lack of that create an egregious
violation of Defendant 5th and 14th Amendment as well as Article 1 sec. 9 of the
Florida Constitution right to due process. It would have the appearance to an
impartial participant to be unfair conduct and bias treatment toward defendant. In
all adversarial proceeding, litigants as well as Judges have a duty of full disclosure
and honesty with the courts procedural process. This case at bar has been violated
with no procedural governing by the trial Judge to rectify legal deficiencies. It would
appear to be a Court not in control of its procedures duties.
Defendant filed with the Court Notice of Admitted Fact pursuant to Request for
Admissions. Request was deemed admitted pursuant to rule 1.110(e). No objection,
motion for injunction or order by the Court was entered to the contrary.
Defendant brought these issues and others to the hearing on Objection to Clerk of
Court filing of Certificate of Title and Motion to set aside Certificate of Title on
Dec. 13th, 2018. Defendant stated issues with note, fraud, cancellation etc., etc. court
was non responsive. Defendant retained court reporter to transcribe 27 pages of
court proceedings which were filed on the record.

11

Defendant Motioned Court for Rehearing as well as Motion for Evidentiary
Hearing on Original Note (02/11/19). Motion for Rehearing and Motion for
Evidentiary Hearing were denied on (03/07/18).
It is from these adverse Trial Court Orders that Notice of Appeal to the 2nd
District Court of Appeal, Florida emanated from. Challenging the integrity of the
original promissory note and the courts lack of subject matter jurisdiction.
Clerk of Court forwarded Record on Appeal containing 878 pages of pleading to
the 2nd DCA for review.
On Aug. 28th, 2019 Defendant filed Notice to Court of Unlawful filing of False
Documents pursuant to s. 71.011 (5) requiring promissory note to be reestablished,
In addition the Clerk of Court requires a court order to release documents back to
plaintiff for future trial. Defendant giving notice to the Court was done in good faith
effort to allow the judicial process to conclude. To no avail, Citibank retained law
firm to institute physical eviction of defendant and elderly mother who also resides
at subject property. Defendant noticed court, bank and attorneys involved that
foreclosing documents were the same fraudulent documents that were at issue in
the case at bar. On or before November 6th’ 2019 defendant and his mother vacated
home of 25 years.
On November 13th, 2019 Petitioner filed Civil Complaint (2019'CA'6043'NC),
pursuant to Florida Criminal Code XLVI 817.535'Unlawful Filing of False
Documents or Records Against Real or Personal Property against all Attorneys, 3
Law Firms and to include two 12th District trial Judges.

12

Per curiam decision
“It is fundamental black letter law” that a PCA “disposition affirming a trial
court order without a written opinion, occurs when the points of law are so well
settled that a further writing would serve no useful purpose” cited on response to
order to show cause Elliot v. Elliot no. 93~Q147. I concur with the senior Judge
Mager in the case of Elliot, but circumstances in this case at bar are not relevant.
The case at bar here today is unique in its abundant of legal deficiency, lack of
proper court procedure, lack of subject matter jurisdiction from inception, fraud on
the court, unclean hands etc. as was preserved in petitioners Affirmative Defense’s.
Compounded by petitioner being denied basic due process of law “the right to be
heard at a fair unbiased tribunal”. This case deserves a meaningful review with
written opinion and a definitive commentary by the 2nd DCA as to why well settled
Florida foreclosure case law, as to original notes being surrendered at trial, is note
being strictly adhered to. Respondent, Citibank should be commanded to produce an
“original” note or an explanation as where these notes derived from, who indorsed
them and when. Petitioner has argued these issues of material fact since
commencement of action. Conley v. Gibson. 355 U.S. 41 at 48 (1957).....“The federal
rules reject the approach that pleading is a game of skill in which one misstep by
counsel may be decisive to the outcome and accept the principle that the purpose of
the pleading is to facilitate a proper decision on the merits”. Also see- Haines v.
Kerner. 404 U.S. 519 (1972) “allegations such as those asserted by petitioner,
“which we hold to a less stringent
however inartfully pleaded, are sufficient”
standard than formal pleadings drafted by lawyers”.
Trial court Judge and Appellate judges should be required to explain in written
opinion courts, lack of subject matter jurisdiction, the admittance of evidence and
fraud on the court when it is clearly presented to them by litigant. Petitioner cites:
B.Plaskyv. CIA, 953 F. 2d 25, 26, 28 (2"d Cir. 1991).
Under what legal authority does trial court have to ignore a valid Florida
statutes to reinstate canceled promissory notes and under what legal authority does
Florida 2nd DCA have to condone this illegal procedural conduct, when it is these
institution that we go to for redress and substantial justice.

13

Petitioner would contest that no suitable case law exists to support the plaintiffs
action in the lower court and the trial courts incompetent handling of basic court
rules, judicial process and basic enforcement of valid Florida statutes. It is a judicial
injustice to allow this behavior to continue without written opinion or explanation,
much less a new trial to those that have been harmed by these actions or sanctions
or worse to those that offend and abuse the “due process of law”.
Petitioner seeks redress of the miscarriage of justice by the Florida Courts in this
United States Supreme Court in good faith and not to harass, relitigate, disrespect
judicial procedure or any of the honorable bar members in it.
The petitioner seeks redress not for his specific benefit but for the benefit of all
United States citizens right to the constitutionally protected right to the “due
process of law”, the basic right to be heard at your own trial, in your own defense.
See- Elmore v. McCammon (1986) 640 F. Supp. 905
“-----the right to file a lawsuit pro se is one of the most important rights under the
constitution and laws.”

14

Conclusion

For the forgoing reasons, Mr. Robison respectfully request this honorable court of
last resort to issue a writ of certiorari to review the per curiam opinion of Florida’s
Second District Court of Appeal.

Dated this 6th day of July, 2020.
Respectfully submitted,
(? (TXLQ_______
Jaimes L. Robison, petitioner, pro se
1058 North Tamiami Trail Suite 108" 118
Sarasota, Florida 34236
e-maib ilrobison3@gmail.com
telephone-' 941-266-6300

15

